.«>•

A*” |
JOSEPH R. DICKEY, Petitioner-Appellant, versus UNITED STATES OF AMERICA,
Respondent-Appellee.
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
2021 U.S. App. LEXIS 14923
No. 20-12025 Non-Argument Calendar
May 19, 2021, Decided
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2021 U.S. App. LEXIS 1}Appeal from the United States District Court for the Northern District of
Alabama. D.C. Docket Nos. 7:07-cv-08006-CLS-SGC; 7:05-cr-00321-CLS-SGC-1.United States v.
Dickey, 2009 U.S. Dist. LEXIS 144648 (N.D. Ala., Mar. 17, 2009)
Disposition:
AFFIRMED.
JOSEPH R. DICKEY, Petitioner - Appellant, Pro se, MARIANNA, FL.
For UNITED STATES OF AMERICA, Respondent - Appellee:
Francesco Valentini, U.S. Department of Justice, Criminal Division, Appellate Section,
WASHINGTON, DC; Michael B. Billingsley, U.S. Attorney Service - Northern District of
Alabama, U.S. Attorney's Office, BIRMINGHAM, AL.
Judges: Before JILL PRYOR, LUCK, and BLACK, Circuit Judges.
Counsel

Opinion

PER CURIAM:
Joseph Dickey, a federal prisoner proceeding pro se, appeals the district court's sua sponte
imposition of a pre-filing injunction after his repeated filings that the court construed as impermissible
successive 28 U.S.C. § 2255 motions. Dickey asserts the district court violated his due process rights
by issuing the pre-filing injunction without giving him notice and an opportunity to respond.
Additionally, he appeals the denial and dismissal of two motions he styled as Federal Rule of Civil
Procedure 60 motions. 1 Dickey contends they were not impermissible successive § 2255 motions
but rather presented valid claims of actual innocence and ineffective assistance of § 2255 counsel.
After review,2 we affirm.{2021 U.S. App. LEXIS 2}
I. DISCUSSION
A. Imposition of Pre-Filing Injunction
"Federal courts have both the inherent power and the constitutional obligation to protect their
jurisdiction from conduct which impairs their ability to carry out Article III functions." Procup v.
Strickland, 792 F.2d 1069 1073 (11th Cir. 1986) (en banc). While a court may severely restrict a
litigant's filings, it cannot completely foreclose a litigant from any access to the courts. Id. at 1074;

CIRHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

25345001

Afpe-n^'ix A9v
Martin-Trigona v. Shaw, 986 F.2d 1384, 1387 (11th Cir. 1993). When devising methods to curtail the
activity of particularly abusive prisoners, however, "courts must carefully observe the fine line
between legitimate restraints and an impermissible restriction on a prisoner's constitutional right of
access to the courts." Procup, 792 F.2d at 1072. An injunction is impermissible when it goes beyond
what is sufficient to protect the court from a prisoner's repetitive filings and, considering its
exceptions, fails to provide meaningful access to the courts. See Miller v. Donald, 541 F.3d 1091,
1098 (11th Cir. 2008) (finding an injunction was overbroad because it was not limited to the areas in
which the plaintiff had demonstrated a history of abusive litigation).
We have upheld injunctions barring litigants from future filings unless and until the filings were
approved byajudge.See Copeland v. Green, 949 F.2d 390, 391 (11th Cir. 1991) (upholding an
injunction directing the clerk{2021 U.S. App. LEXIS 3} to mark any papers submitted by a frequent
litigant as received but not to file the documents unless a judge approved them for filing); Cofield v.
Ala. Pub. Serv. Comm'n, 936 F.2d 512, 518 (11th Cir. 1991) (finding a pre-filing screening that
required plaintiff to send all pleadings to a judge for approval left plaintiff with sufficient access to the
courts); see also Traylor v. City of Atlanta, 805 F.2d 1420, 1422 (11th Cir. 1986) (upholding an
injunction preventing the plaintiff from filing additional complaints against certain defendants based
upon a set of factual circumstances that had been litigated and adjudicated in the past).
The district court did not abuse its discretion in fashioning the pre-filing restriction in Dickey's closed
§ 2255 case. The restriction did not completely foreclose Dickey's access to the courts-he may still
file actions outside of this case and may still give proposed filings in this case to the court for a
magistrate judge's approval for docketing. See Martin-Trigona, 986 F.2d at 1387; Cofield, 936 F.2d at
518. And the restriction was properly tailored and limited to the area in which Dickey has
demonstrated a history of vexatious litigation-repeated improper attempts to reopen his § 2255
proceedings. See Miller, 541 F.3d at 1098; Copeland, 949 F.2d at 391. ,
Further, the pre-filing injunction does not implicate Dickey's due process rights. See Zipperer v. City
of Fort Myers, 41 F.3d 619, 623 (11th Cir. 1995) ("Procedural due process requires notice and an
opportunity{2021 U.S. App. LEXIS 4} to be heard before any governmental deprivation of a property
or liberty interest."). The court imposed a pre-filing restriction where Dickey still has essentially full
access to the courts-he can still file separate actions, without limitation, and can still file in this §
2255 case with approval. Thus, there is no meaningful governmental deprivation that requires notice
and an opportunity to be heard. Accordingly, we affirm the prefiling injunction
B. Motions
A district court does not have jurisdiction to review a federal prisoner's successive § 2255 motion
unless that motion is first certified by the appropriate court of appeals. 28 U.S.C. §§ 2244(b)(3)(A),
2255(h); Farris v. United States, 333 F.3d 1211, 1216 (11th Cir. 2003). A Rule 60(b) motion is a
successive § 2255 motion if it seeks to add a new ground for relief or attacks the district court's prior
resolution of a claim on the merits, but not when it attacks a defect in the integrity of the § 2255
proceedings. Gonzalez v. Crosby, 545 U.S. 524, 531-32, 125 S. Ct. 2641, 162 L. Ed. 2d 480 (2005)
(addressing a Rule 60(b) motion in the 28 U.S.C. § 2254 context); Gilbert v. United States, 640 F.3d
1293, 1323 (11th Cir. 2011) (en banc) (applying Gonzalez in the § 2255 context), overruled on other
grounds by McCarthan v. Dir. of Goodwill Indus.-Suncoast, Inc., 851 F:3d 1076 (11th Cir. 2017) (en
banc). Generally, to attack a defect in the integrity of the § 2255 proceedings, and escape treatment
as an impermissibly successive § 2255 motion, the Rule 60(b) motion must allege a fraud on the
court or a procedural error that prevented the{2021 U.S. App. LEXIS 5} court from reaching the
merits of the § 2255 motion. See Gonzalez, 545 U.S. at 532 & nn.4-5 (contrasting a challenge to the
substance of a ruling on a § 2254 petition with allegations of fraud on the court and erroneous rulings

CIRHOT

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

25345001

on the failure to exhaust, procedural default, and the statute of limitations that prevented a resolution
on the merits).
An attack based on the habeas counsel's omissions "ordinarily does not go to the integrity of the
proceedings, but in effect asks for a second chance to have the merits determined favorably.”
Gonzalez, 545 U.S. at 532 n.5. A district court is not required to grant an evidentiary hearing in a §
2255 proceeding if the case's records conclusively show the prisoner is not entitled to relief or if his
claims are patently frivolous. Rosin v. United States, 786 F.3d 873, 877 (11th Cir. 2015).
Dickey's arguments about actual innocence and ineffective assistance of counsel do not involve
defects in the integrity of the § 2255 proceedings as contemplated by Gonzalez or Gilbert. Instead,
the contentions in both of Dickey's Rule 60 motions took issue with the court's resolution on the
merits in the original § 2255 proceedings. Dickey's actual innocence argument-that the court refused
to properly hear him and review his claims of actual innocence in the § 2255 proceedings-ignores the
fact the district court{2021 U.S. App. LEXIS 6} analyzed his claims of innocence. In fact, the court
noted the evidence against Dickey was sufficient and, further, Dickey, could not demonstrate a
freestanding substantive claim of actual innocence. In other words, the district court concluded the
record-including evidence that Dickey submitted-obviated the need to hear from Dickey further or
see more purported evidence involving his actual innocence claims. See 28 U.S.C. § 2255(b); Rosin,
786 F.3d at 877. To challenge the district court's decision not to hear from him further regarding
actual innocence, Dickey necessarily would have to challenge the conclusion his claims were without
merit. Thus, his challenge regarding actual innocence was substantive and not an attack on some
defect in the integrity of the federal habeas proceedings. See Gonzalez, 545 U.S. at 532.
Similarly, Dickey's ineffective assistance of § 2255 counsel claim is an attempt to relitigate his claim
that his trial attorney was ineffective. While he couches his argument in procedural terms-that the
court was precluded from reaching the merits because of some procedural problem or because of
the ineffectiveness of his § 2255 counsel-Dickey is simply attacking the district court's resolution of
the merits of his ineffective assistance of counsel{2021 U.S. App. LEXIS 7} claim. See Gonzalez,
545 U.S. at 532 n.5. It is unclear how his § 2255 counsel abandoned his ineffective assistance of trial
counsel claim, as Dickey argues, because the district court held an evidentiary hearing about it with
testimony from his trial attorneys. And Dickey provides no support for his proposition that a district
court is somehow precluded from reaching the merits of an ineffective assistance of counsel claim
because of a disagreement between the prisoner and his § 2255 counsel about how to best present
that claim. Accordingly, we affirm the district court’s orders regarding Dickey's August 9, 2019 and
March 12, 2020 Rule 60 motions.
II. CONCLUSION
Because the pre-filing restriction does not foreclose Dickey's access to the courts and it was properly
tailored, the district court was within its authority to impose such a restriction. The district court did
not err by disposing of the two motions because they were improper attempts to relitigate previous
claims challenging the validity of Dickey's underlying criminal convictions. Accordingly, we affirm the
district court's orders.
AFFIRMED.
Footnotes

1

CIRHOT

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

25345001

The relevant motions are Dickey's Rule 60 motion for relief from the judgment denying his original §
2255 motion that he filed on August 9, 2019 and Dickey's motion for relief from his § 2255 judgment
because of miscarriage of justice filed on March 12, 2020, in which he cited to various rules of civil
procedure, including Rule 60.
2
We review the district court's decision to impose a filing injunction or restriction for an abuse of
discretion. See Miller v. Donald, 541 F.3d 1091, 1096 (11th Cir. 2008). We review questions of
constitutional law de novo. Fort Lauderdale Food Not Bombs v. City of Fort Lauderdale, 901 F.3d
1235, 1239 (11th Cir. 2018). We review issues of subject matter jurisdiction de novo. Williams v.
Chatman, 510 F.3d 1290, 1293 (11th Cir. 2007).

CIRHOT

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

25345001

USCA11 Case: 20-12025

Date Filed: 07/07/2021

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12025-AA

JOSEPH R. DICKEY,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.

Appeal from the United States District Court
for the Northern District of Alabama
BEFORE: JILL PRYOR, LUCK, and BLACK, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Appellant Joseph R. Dickey is DENIED.

ORD-41

FILED

Case 7:07-cv-08006-CLS-SGC Document 163 Filed 03/24/20 Page 1 of 6

2020 Mar-24 AM 11:21
U.S. DISTRICT COURT
N.D. OF ALABAMA

’X C\

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
WESTERN DIVISION
JOSEPH R. DICKEY,

]
]
]
]

Petitioner,
v.

] Case No. 7:07-cv-08006-CLS-SGC
]

UNITED STATES OF AMERICA,

]
]
]

Defendant.

ORDER ON PENDINGMOTIONS AND
PRE-FILING INJUNCTION FOR ANY FUTURE FILINGS
This habeas case has been closed for nearly ten years. The court denied Mr.
Dickey’s 28 U.S.C. § 2255 habeas motion on September 30, 2010. (Docs. 82 &
83). The Eleventh Circuit affirmed this court’s denial of that habeas motion on
August 22, 2011. (Doc. 91). This case is over. But Mr. Dickey continues to file
numerous meritless and frivolous motions that waste the court’s time and
resources.
The court will first address all pending motions. Then, the court will put in
place a pre-filing screening requirement to stop Mr. Dickey’s rampant meritless
filings in this case.

1

Case 7:07-cv-08006-CLS-SGC Document 163 Filed 03/24/20 Page 2 of 6

Pending Motions
Mr. Dickey’s current pending motions include two motions for recusal
(docs. 157 & 161), a motion to reconsider (doc. 159), and a motion for relief from
the § 2255 judgment (doc. 162).
Mr. Dickey asks that Judge Smith recuse himself from the case, but none of
the grounds for recusal have merit. Whatever alleged bias Mr. Dickey claims
Judge Smith had during the habeas proceedings is of no consequence. This case is
over, and the Eleventh Circuit has affirmed this court’s ruling on Mr. Dickey’s §
2255 motion.
Judge Smith has already denied a previous motion to recuse (doc. 137), and
Mr. Dickey’s current motions do not present grounds for recusal. So the court
DENIES his motions for recusal as meritless (docs. 157 and 161).
Likewise, Mr. Dickey’s motion to reconsider a previous denial of a Rule 60
motion lacks merit. The court lacks jurisdiction to decide a purported Rule 60(b)
motion for relief from judgment that is actually a successive habeas petition. The
court has already dealt with many motions for relief from judgment and motions to
reconsider filed by Mr. Dickey. (Docs. 101, 130, 133, 134, 148, & 150). That Mr.
Dickey does not agree with those prior rulings carries no weight. To put the matter
to rest, the court gives the following reasons for its rulings on these two pending
motions.
2

Case 7:07-cv-08006-CLS-SGC Document 163 Filed 03/24/20 Page 3 of 6

C3
In the federal habeas context, Fed. R. Civ. P. 60 provides a limited basis for
a petitioner to receive relief from a final judgment. Williams v. Chatman, 510 F.3d
1290, 1293 (11th Cir. 2007). Rule 60 cannot be used to bypass the restrictions
imposed on successive petitions by the Antiterrorism and Effective Death Penalty
Act. Id. at 1293-94 (citing Gonzales v. Crosby, 545 U.S. 524, 529, (2005)).
Section 2255(h) of that Act requires that a movant first obtaining certification from
the Eleventh Circuit before filing a successive habeas petition.
The Supreme Court explained that a Rule 60 motion should be treated as a
successive habeas petition requiring prior certification from the Circuit Court if it
(1) “seeks to add a new ground of relief;” or (2) “attacks the federal court’s
previous resolution of a claim on the merits.” Gonzales, 545 U.S. at 532 (emphasis
added). But if a Rule 60 motion “attacks, not the substance of the federal court’s
resolution of a claim on the merits, but some defect in the integrity of the federal
habeas proceedings,” the motion is not a successive habeas petition. Id.
The court has no jurisdiction to decide a successive habeas motion without
the movant first obtaining certification from the Eleventh Circuit as required by 28
U.S.C. § 2255(h). Absent such certification, this court must dismiss the motion
without prejudice. See United States v. Holt, 417 F.3d 1172, 1175 (11th Cir.
2005).

3

Case 7:07-cv-08006-CLS-SGC Document 163 Filed 03/24/20 Page 4 of 6

In this case, Mr. Dickey’s Rule 60(b) motion does not attack a defect in the
integrity of the habeas proceeding. Instead, Mr. Dickey merely disagrees with this
court’s previous merits determination affirmed by the Eleventh Circuit. No matter
how Mr. Dickey titles his motion, his purported Rule 60(b) motion is really a
successive habeas motion in which he seeks a second bite at the habeas apple
without the proper certification from the Eleventh Circuit.
For all the reasons previously given for denying past Rule 60 motions (docs.
101, 130, 148, 150, 133, & 134) and because Mr. Dickey has not obtained the
required certification from the Eleventh Circuit for a second habeas petition, the
court has no jurisdiction to decide the motion. So the court DENIES Mr. Dickey’s
motion to reconsider (doc. 159) and DISMISSES his successive habeas motion
(doc. 162) for lack of jurisdiction.
Pre-filing Injunction
To put an end to Mr. Dickey’s numerous frivolous and meritless filings in
this closed case, the court has the authority to order a pre-filing screening by the
Chief Magistrate Judge to review any future filings to determine if they have any
merit before the Clerk of Court places those filings on the docket. See Cofield v.
Ala. Public Serv. Comm’n, 936 F.2d 512, 518 (11th Cir. 1991) (the federal court
can limit the filing of frivolous lawsuits on a case-by-case basis if arguable claims

4

Case 7:07-cv-08006-CLS-SGC

Document 163 Filed 03/24/20

Page 5 of 6

can move forward). This pre-filing screening gives Mr. Dickey sufficient access to
the court but is necessary to prevent his further abuse of the judicial process.
Since the Eleventh Circuit affirmed the court’s denial of his § 2255 motion
to vacate, Mr. Dickey has filed a plethora of meritless motions and appeals of the
denial of those motions: eight “Rule 60(b)” motions (docs. 94, 98, 115, 124, 146,
147, 149, 162); four motions to recuse (docs. 95, 136, 157, 161); five motions to
reconsider (docs. 103, 132, 134, 138, 159); a motion to reopen case (doc. 113); a
motion for clarification (doc. 152); and four notices of appeal of the denial of these
meritless motions (docs. 104, 116, 139, 154).
These filings are repetitive, frivolous, and groundless, and Mr. Dickey’s
constant filings disrupt the orderly administration of justice because they waste the
court’s time and resources. The court has no remedy short of a pre-filing
injunction to prevent Mr. Dickey’s abuse of the judicial process; the pre-filing
injunction is the least restrictive alternative available to the court.
So, the court ORDERS as follows:
1. Mr. Dickey is enjoined from filing any document for docketing in this case
with the Clerk of Court for the Northern District of Alabama without the prior
approval of the court as described below.
2. If Mr. Dickey wishes to file a document in this case, he shall notify the Clerk
of Court in writing of the nature of the filing and its legal basis and shall
5

at •

Case 7:07-cv-08006-CLS-SGC Document 163 Filed 03/24/20 Page 6 of 6

include a copy of the proposed filing. The Clerk of Court will promptly deliver
the proposed filing to the Chief Magistrate Judge of this court (or any other
Magistrate Judge designated by the Chief Magistrate Judge).
3. The Clerk of Court will not place any filing from Mr. Dickey on the docket
unless it is accompanied by confirmation from the Chief Magistrate Judge, or
another Magistrate Judge delegated by the Chief Magistrate, that the filing has
been approved for docketing in this case.
4. Should Mr. Dickey manage to file any document in this case with the court
without the required approval despite this Order, the Clerk of Court shall
notify the court and is authorized to remove the document from the file and
strike references to it.
5. A violation of this Order by Mr. Dickey shall be considered contempt and may
be sanctioned accordingly.
6. This Order shall remain in effect until vacated by the court.
7. A copy of this Order shall be delivered to the Clerk of Court.
DONE and ORDERED this 24th day of March, 2020.

KAReN OWEN BO WORE
UNITED STATES DISTRICT JUDGE

6

'

Case: 20-11417

Date Filed: 06/16/2020

Page: 1 of 7

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11417-E

IN RE: JOSEPH DICKEY,
Petitioner.

Application for Leave to File a Second or Successive
Motion to Vacate, Set Aside,
or Correct Sentence, 28 U.S.C. § 2255(h)

Before MARTIN, ROSENBAUM, and JILL PRYOR, Circuit Judges.
BYTHEPANEL:
Pursuant to 28 U.S.C. §§ 2255(h) and 2244(b)(3)(A), Joseph Dickey has filed an
application seeking an order authorizing the district court to consider a second or successive
motion to vacate, set aside, or correct his federal sentence, 28 U.S.C. § 2255. Such authorization
may be granted only if this Court certifies that the second or successive motion contains a claim
involving
(1) newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have found the movant guilty of the
offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.
28 U.S.C. § 2255(h). “The court of appeals may authorize the filing of a second or successive
application only if it determines that the application makes a prima facie showing that the

i

Case: 20-11417

Date Filed: 06/16/2020

Page: 3 of 7

©is
Notably, in 2017, we denied two of Dickey’s successive applications as barred, in part, by
Baptiste because he had previously raised his actual-innocence claim and portions of his
ineffective-assistance-of-counsel claim in his original § 2255 motion.
In 2019, Dickey filed his most recent successive application seeking permission to raise
one claim in a second or successive § 2255 motion. In that application, Dickey argued that we
incorrectly decided Baptiste and impermissibly applied it to his claims of actual innocence that he
had previously raised. We denied that application because it did not rely on a new rule of
constitutional law or newly discovered evidence, Baptiste barred further review of the actual
innocence claim, and Dickey could not challenge Baptiste or our denial of his prior applications.
Dickey titled his instant application a “MOTION FOR AN EN BANC CONSIDERATION
FOR PERMISSION TO FILE A SECOND/SUCCESIVE 2255.” He states that he has previously
filed at least three successive applications that were procedurally barred and references
unidentified applications that we denied as barred by Baptiste. He explains that new evidence
supporting his actual innocence claim came to light between the time he filed his initial § 2255
motion—where he made an actual-innocence claim—and when the district court denied it. He
requests that we sit en banc and overturn Baptiste so he can raise his actual-innocence claim with
that new evidence, arguing that Baptiste is wrong as a matter of law and “is forcing [him] to serve
an illegal sentence.”
Dickey attached to his application evidence that he contends supports his actual-innocence
claim, asserting that the evidence shows he is innocent of at least three of his offenses because the
alleged victims were not present on the dates those offenses took place. He states that he seeks

3

Case: 20-11417

Date Filed: 06/16/2020

Page: 4 of 7

to bring four claims in a successive § 2255 motion: one claim that the government violated Brady
by withholding exculpatory evidence from his trial counsel and three claims that trial counsel was
ineffective for not seeking exculpatory evidence and for advising him to plead guilty.

He

concludes by again asking us to hear his motion en banc so we can overturn Baptiste and review
his actual innocence claim.
Dickey does not allege that his claims rely on a new rule of constitutional law, and claims
of ineffective assistance of counsel and violations of Brady necessarily do not rely on new rules of
constitutional law. See Brady, 373 U.S. at 83 (rule announced in 1963); Strickland v. Washington,
466 U. S. 668(1984). While he states he wishes to present new evidence, his primary argument—
that we should reconsider our previous orders denying his previous successive applications
because those orders were based on the legally incorrect decision of Baptiste—does not rely on
that new evidence. See id § 2255(h)(1).
In any event, Dickey’s application is barred by Baptiste because he has previously raised
all the claims he seeks to bring. See 28 U.S.C. § 2244(b)(1). By Dickey’s own admission, he is
barred from raising his actual-innocence claim because he previously raised it in his initial § 2255
motion and in prior successive applications. See Baptiste, 828 F.3d at 1339-40. Dickey has also
raised his ineffective-assistance-of-counsel claims before.

Finally, the basic gravamen of

Dickey’s Brady claim is the same as the malicious-prosecution claim that he raised in his initial
§ 2255 motion—that the government prosecuted him knowing exculpatory evidence existed. See
Everett, 797 F.3d at 1288.

l

Brady v. Maryland, 373 U.S. 83 (1963).
4

Case: 20-11417

Date Filed: 06/16/2020

Page: 5 of 7

And as we said in denying Dickey’s most recent application, Dickey cannot seek
reconsideration of our previous orders denying his prior successive applications seeking
permission to raise his actual-innocence claim. See Baptiste, 828 F.3d at 1340 (stating that
§ 2244(b)(3)(E) does not permit “what amounts to a motion for reconsideration under the guise of
a separate and purportedly ‘new’ application”). Nor, as we also said, can Dickey seek an en banc
hearing or to recall the mandate in Baptiste because he is not a party to that case. To the extent
that Dickey seeks initial en banc hearing on this application, that motion is DENIED.
Accordingly, Dickey’s application for leave to file a second or successive § 2255 motion
is DISMISSED.

5

PS

Case: 20-11417

Date Filed: 06/16/2020

Page: 6 of 7

MARTIN, Circuit Judge, concurring in judgment:
The panel holds that Mr. Dickey’s claims are barred by In re Baptiste. 828
F.3d 1337 (11th Cir. 2016), which held that “the federal habeas statute requires us
to dismiss a claim that has been presented in a prior application” to file a § 2255
motion. Id. at 1339. I have stated my view that Baptiste has no basis in the text of
the habeas statute:
Baptiste was construing 28 U.S.C. § 2244(b)(1), which
says any “claim presented in a second or successive habeas
corpus application under section 2254 that was presented
in a prior application shall be dismissed.” Of course, []
§ 2255 motions ... are filed by federal prisoners [and]
§ 2255 motions are certainly not brought “under section
2254,” which governs petitions filed by state prisoners.
But the Baptiste panel ruled that even though § 2244(b)(1)
does not mention § 2255 motions, it applies to them
anyway, since “it would be odd [] if Congress had intended
to allow federal prisoners” to do something state prisoners
can’t do.
In re Clavton. 829 F.3d 1254,1266 (11th Cir. 2016) (Martin, J., concurring). And
Baptiste is inconsistent with the statute in a second way.
The text of the habeas statute shows that it requires courts
to dismiss only claims that were already presented in an
actual § 2255 motion, as opposed to a mere request for
certification of a successive § 2255 motion. Both § 2244
and § 2254 distinguish between “applications” (which are
the § 2254 petitions and § 2255 motions filed in district
courts) and “motions” (which are the earlier request for
certification filed in a court of appeals). Baptiste assumes
that “motion” and “application” mean the same thing, even
though Congress carefully distinguished the two. When
Congress uses different words in this way, courts must
presume those words mean different things.
6

Case: 20-11417

Date Filed: 06/16/2020

Page: 7 of 7

In re Anderson. 829 F.3d 1290, 1296 (11th Cir. 2016) (Martin, J., dissenting). My
colleagues have articulated other problems with Baptiste. See In re Jones. 830
F.3d 1295, 1297 (11th Cir. 2016) (Rosenbaum and Jill Pryor, J.J., concurring).
I am concerned that Baptiste is blocking relief to prisoners who ask us to
take a second look at their case after we got it wrong the first time. Nevertheless,
Baptiste is binding precedent in this circuit, so Mr. Dickey will not be allowed to
present his claims to a District Court for an examination of whether his convictions
are legal.

7

V.
I

'
V«*vv„u Uj'iVV UW WAi\ Y\
3u\
^ “‘'j 3005 -Ha £k\<4

+v* ^ vw W.

f\>0* ^
3\' E^wo-rK^

I^h
Ya\Vv6\

& if>^_

^-Orybi

/

3’MlsV|'}iTl,i^(f\ *U|

{-\\i>riy(L^

^A&Ww4 4o -Vu^

^
uA

)

^

^

V\

W tA&bK W h (\*?

(K\J \ \fN

Vaj\4^

(:.
■

V \ C^\

^ v

"I'T'

)*v

c

M.. Lo'i*.

Y\oV

■

‘

•,.?

^

r>o^,V C^-03^ [Jaj)\
^ ^V^Xnc-saH ^ Q^ .i^of^;0r^

^syb^ 'Vo UW<l PH

\-A V\i A's

i ^N» c

-

1 )Y\

Kwi^
+<>A,$j4 Uv,Wr OAV -SW 4.^

0Vu_rbv V ' >’kfc4s *•*

fl W l.

fat

U' 3 Ai

irM.s

6k i
0^

